                                       SOCIAL SECURITY
MEMORANDUM

Date:      September 4, 2007                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Controls Over Employee Verification Programs (A-03-06-15036)


           The attached final report presents the results of our audit. Our objectives were to
           assess the controls over each employee verification program and identify best
           practices.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                               Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    CONTROLS OVER EMPLOYEE
      VERIFICATION PROGRAMS

  September 2007   A-03-06-15036




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                     Executive Summary
OBJECTIVE
Our objectives were to assess the controls over each employee verification program
and identify best practices.

BACKGROUND
To assist employers with accurate wage reporting, the Social Security Administration
(SSA) has implemented several voluntary verification programs that allow employers to
verify that the names and Social Security numbers (SSN) of existing and newly-hired
employees match the Agency’s records prior to submitting their wage reports to SSA.
These verification programs include the Employee Verification Service (EVS)
Telephone/Fax, EVS for Registered Users, and the Social Security Number Verification
Service (SSNVS).

SSA also participates in a joint initiative with the Department of Homeland Security
(DHS), the Employment Eligibility Verification System (EEVS), 1 formerly known as the
Basic Pilot. 2 EEVS assists employers in verifying the employment eligibility of newly-
hired employees. Participating employers register on-line with DHS to use the voluntary
system. The information the employer submits to DHS is sent to SSA to verify the
name, SSN, and date of birth (DoB) match SSA’s records. SSA also provides DHS with
U.S. citizenship information, as recorded in SSA records. When SSA records indicate
U.S. citizenship and the employee has alleged U.S. citizenship, employment
authorization is confirmed. DHS confirms the current employment-authorization for non-
citizens. 3

RESULTS OF REVIEW
We found SSA could establish more effective controls over access to EVS
Telephone/Fax and EVS for Registered Users. In addition, access controls over DHS’
EEVS could be improved. For example, none of these verification programs required
verification of a user’s identity or authorization to use the verification programs on behalf
of his/her employer. Only SSA’s SSNVS had adequate access controls. In addition, we
learned the feedback responses provided to employers were not consistent among the
verification programs for (1) name and SSN matches, (2) death indicator responses,
(3) corrected SSNs, and/or (4) work authorization status. For instance, an employer
could submit the same name and SSN for verification and the data could be verified

1
    EEVS is also referred to as E-Verify.
2
  Section 401 of The Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(8 U.S.C. § 1324a), Pub. Law No. 104-208. See Appendix E for more details about EEVS.
3
    Basic Pilot (BP) and Designated Agent Basic Pilot (DABP) User Manual, DHS, April 2004.


Controls Over Employee Verification Programs (A-03-06-15036)                                 i
under the DHS’ EEVS but fail verification under SSNVS. Finally, we found that both
EVS programs and DHS’ EEVS lack effective controls related to monitoring employers’
usage of the programs and/or blocking unauthorized and inactive users from gaining
access to the verification programs. Due to the vulnerabilities and inconsistencies we
found among the verification programs, SSA’s data could be susceptible to
unauthorized access as well as inadvertent disclosure of personally identifiable
information (PII) to unauthorized users.

                                        EVS Telephone/Fax              EVS
              Description                           Teleservice     Registered
              of Controls               ERSC1         Center          Users      SSNVS          EEVS
                                                  Access Controls
    Verifies user’s Identity             No              No            No           Yes          No
    Validates user’s authority to use
    the program on behalf of his/her     No              No            No           Yes          No
    employer
                                          Verification Feedback
    Uses name matching software          N/A            N/A            No           No           Yes

    Provides a death indicator                                2                                        2
                                         No             Yes            Yes          Yes          Yes
    response
    Verifies information without
                                         N/A            N/A            No           Yes          Yes
    providing corrected SSN
    Verifies work authorization                               3
                                         No             Yes            No           No           Yes
    status
                                           Monitoring Controls
                                                                                                    4
    Monitor employers usage              No              No            No           Yes          No

                                              5
    Blocks unauthorized use             Yes              No            No           Yes          No

    Deactivates inactive users           N/A            N/A            No           Yes          No

Note 1: Within SSA, two components are primarily responsible for conducting the verifications by
                                                                                       4
telephone—Teleservice Centers and the Employer Reporting Service Center (ERSC).
Note 2: While the program did not specifically note that the Agency’s records showed a death, the
program would not verify any data related to an individual shown as deceased in the Agency’s records.
Note 3: While the program did not specifically note that the Agency’s records showed the individual was
unauthorized to work, the program would not verify any record related to an individual recorded as
unauthorized to work in the Agency’s records.
Note 4: DHS is developing this capacity.
Note 5: Although the ERSC cannot block incoming telephone calls, it maintains a list of problem
employers on a “Do Not Verify” list to restrict further verification.




4
 While we are using the term Teleservice Centers in our review, SSA field offices also are responsible for
verifications and are expected to follow the same policy guidance.


Controls Over Employee Verification Programs (A-03-06-15036)                                               ii
CONCLUSION AND RECOMMENDATIONS
We believe that providing employers with tools to verify the names/SSNs of their
employees is crucial for accurate wage reporting. DHS’ EEVS also helps ensure
compliance with immigration laws by providing information on employee’s work
authorization. However, both SSA and DHS need to make certain that adequate
security measures are in place to prevent and detect unauthorized or inappropriate
access to the verification programs and SSA data. Furthermore, the two agencies need
to ensure feedback responses provided to users of the verification programs are
consistent to avoid skepticism about these programs and data and to prevent
inadvertent disclosure of PII to unauthorized users.

To address the findings in this report, we recommend SSA:

   1. Consider combining the EVS Telephone/Fax and EVS for Registered Users
      under SSNVS to ensure access and monitoring controls are in place to protect
      the program, safeguard data, prevent unauthorized access, and provide
      consistent information to employers.

   2. Ensure that feedback responses provided to employers for the four verification
      programs are consistent as it relates to (a) name/SSN matches and (b) death
      indicator responses.

If the Agency determines that is not feasible to combine its employee verifications under
the SSNVS umbrella, we have made a series of recommendations on what the Agency
should do:

   3. Implement procedures to verify the identity and authority for individuals to use
      EVS Telephone/Fax and EVS for Registered Users to ensure proper disclosure
      of verification data.

   4. Discontinue the disclosure of corrected SSNs via the paper process under EVS
      for Registered Users.

   5. Consider modifying all verification programs to detect SSNs for individuals in
      non-work status, provide employers with notification, and instruct employers to
      have their employees visit a field office to update the employee’s record.

   6. Establish monitoring controls for EVS Telephone/Fax and EVS for Registered
      Users that is consistent with SSNVS to detect potential misuse of the verification
      programs.

   7. Develop procedures to block unauthorized users from gaining access to SSA’s
      verifications programs. Ensure that unauthorized user information is shared
      among the verification programs to prevent further access to SSA data.




Controls Over Employee Verification Programs (A-03-06-15036)                             iii
   8. Establish a protocol to remove inactive users from the list of valid users for EVS
      for Registered Users until their identity and authorization to use the verification
      program has been verified and updated.

AGENCY COMMENTS
SSA agreed with all but one of our recommendations. In response to Recommendation
5, SSA stated that it believed that work authorization was DHS’ responsibility and
should be handled through DHS’ EEVS process. Further, the Agency stated that
although current disclosure policy would allow work authorization information to be
provided to employers based on their wage reporting responsibilities, this information
may not be current in SSA’s Numident records. See Appendix F for the full text of
SSA’s comments.

OIG RESPONSE
In terms of Recommendation 5, we believe SSA should reconsider this recommendation
because the Agency has a significant role in the workplace by (1) issuing Social
Security cards with work authorization designations to assist employers when they hire
new employees and (2) assisting DHS with EEVS to verify the identity and work
authorization of new employees.

Since SSA’s employee verification programs are more comprehensive than EEVS in
that SSA verifies the identity of new and existing employees (i.e. SSNVS), we believe
SSA is in a good position to assist with work authorization as well. Even if SSA’s
Numident records are out of date, two positive outcomes are possible if SSA verifies an
employee’s work authorization: (1) unauthorized workers are identified or (2) the
employee’s information is updated in SSA’s records.

Currently, non-citizens with outdated information in SSA’s systems are most likely
unaware that their information is being reported to DHS as part of SSA’s legal
requirement to share such data with DHS for worksite enforcement. Moreover, these
non-citizens will not be eligible for SSA benefits until their work authorization information
has been corrected.

In terms of workloads, even if work authorization notifications to employers lead to
additional workloads in the short-term, we believe this data-sharing will (1) improve the
accuracy and integrity of SSA records and (2) reduce the number of nonwork SSNs
shared with DHS in subsequent years, allowing DHS to better focus its resources. In
addition, the earlier notifications could lessen field office workloads by reducing the
number of “SSA tentative non-confirmations” under EEVS and eliminating the need for
staff to verify the existence of a work-authorized SSN for non-citizens applying for SSA
benefits.




Controls Over Employee Verification Programs (A-03-06-15036)                                iv
                                                                        Table of Contents
                                                                                                                   Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

Access Controls ...................................................................................................... 3

    •    Verification of User’s Identity ........................................................................ 3

    •    Validation of User’s Authorization to Represent Employer ........................... 4

Verification Feedback .............................................................................................. 5

    •    Name Matching Software ............................................................................. 6

    •    Death Information ......................................................................................... 6

    •    Corrected SSNs............................................................................................ 7

    •    Verifying Work Authorization Status ............................................................. 8

Monitoring Controls ................................................................................................. 9

    •    Monitoring Usage ......................................................................................... 9

    •    Blocking Unauthorized or Inactive Users .................................................... 11

CONCLUSIONS AND RECOMMENDATIONS ..................................................... 13

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Employee Verification Service
APPENDIX D – Social Security Number Verification Service
APPENDIX E – Employee Eligibility Verification System
APPENDIX F – Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments



Controls Over Employee Verification Programs (A-03-06-15036)
                                                                             Introduction
OBJECTIVE
Our objectives were to assess the controls over each employee verification program
and identify best practices.

BACKGROUND
To assist employers with accurate wage reporting, the Social Security Administration
(SSA) has implemented several voluntary verification programs that allow employers to
verify that the names and Social Security numbers (SSN) of existing and newly-hired
employees match the Agency’s records prior to submitting their wage reports to SSA.
These verification programs include the Employee Verification Service (EVS)
Telephone/Fax, EVS for Registered Users, and the Social Security Number Verification
Service (SSNVS).

    •   EVS Telephone/Fax is a voluntary program where employers can verify up to 5
        employees’ names/SSNs by calling SSA’s toll-free numbers and up to 50
        names/SSNs by submitting paper listings to SSA offices. 1

    •   EVS for Registered Users is a voluntary electronic verification program
        established in the early 1980s. Under this program, employers can verify 51 or
        more employees’ names/SSNs by submitting paper or magnetic media listings
        (tape, cartridge, compact disk, or diskette). 2

    •   SSNVS is a voluntary on-line program that allows employers to validate the
        names/SSNs of employees. 3 Established in 2002 as a pilot restricted to a
        limited number of employers, the program was rolled out to all employers in June
        2005.

1
  Within SSA, two components are primarily responsible for conducting the verifications by telephone—
Teleservice Centers and the Employer Reporting Service Center (ERSC). Staff in the Teleservice
Centers provide a full range of assistance to beneficiaries and inquirers (including employers) by
telephone and/or by correspondence regarding all programs administered by SSA. Staff in the ERSC
assists employers with wage reporting questions or problems. While we are using the term Teleservice
Centers in our review, SSA field offices also are responsible for verifications and are expected to follow
the same policy guidance.
2
  Starting in October 2007 SSA will no longer process magnetic media (i.e. tapes, cartridges, compact
disk, or diskettes) for SSN verification using EVS for Registered Users. Employers that prefer to submit
requests electronically will be required to use SSNVS. SSA will continue to accept paper requests under
EVS for Registered Users. The paper requests are processed by SSA’s Wilkes Barre Data Operations
Center (WBDOC). See Appendix C for more details about the EVS program.
3
  SSNVS is one of the programs offered by SSA’s Business Service Online (BSO). BSO is a suite of
Internet programs for businesses and employers to exchange information with SSA. See Appendix D for
more details about SSNVS.


Controls Over Employee Verification Programs (A-03-06-15036)                                                 1
          For SSNVS, employers can either verify up to 10 names/SSNs (per screen)
          on-line, and receive immediate results, or upload batch files of up to 250,000
          names/SSNs and usually receive results the next Government business day.

SSA also participates in a joint initiative with the Department of Homeland Security
(DHS), the Employment Eligibility Verification System (EEVS), 4 formerly known as the
Basic Pilot. 5 EEVS assists employers in verifying the employment eligibility of newly-
hired employees. Participating employers register on-line with DHS to use the voluntary
system. The information the employer submits to DHS is sent to SSA to verify the
name, SSN, and date of birth (DoB) match SSA’s records. SSA also provides DHS with
U.S. citizenship information, as recorded in SSA records. When SSA records indicate
U.S. citizenship and the employee has alleged U.S. citizenship, employment
authorization is confirmed. DHS confirms the current employment-authorization for non-
citizens. 6

A comparison of the four verification programs is shown in the following table.

                         Table 1: Comparison of Verification Programs
                                                     EVS
                                      Telephone/           Registered
          Characteristics                 Fax                Users        SSNVS              EEVS

    Date Established                        1983              1983          2002             1997
    Registered employers as of
         1                                         2
    2006                             Not available           16,600        13,400            12,000
                               3                   2
    Verifications as of 2006          Not available     31.5 million       49 million      1.7 million
                                           All               All              All
    Type of Employees Verified         Employees         Employees        Employees     Newly-Hired
                                         Ensure           Ensure            Ensure
    Purpose of Verification          Accurate Wage     Accurate Wage    Accurate Wage   Verify Work
    Program                            Reporting         Reporting        Reporting     Authorization
Note 1: Employers can have multiple users registered to use the verification programs on their behalf.
Note 2: This data was unavailable because SSA does not capture employer and verification data for the
EVS Telephone/Fax service.
Note 3: The verification data for the programs covered two different periods since SSA captures EVS and
SSNVS data by Calendar Year (CY) and DHS captures the EEVS data by Fiscal Year.




4
    EEVS is also referred to as E-Verify.
5
  Section 401 of The Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(8 U.S.C. § 1324a), Pub. Law No. 104-208. See Appendix E for more details about EEVS.
6
    Basic Pilot (BP) and Designated Agent Basic Pilot (DABP) User Manual, DHS, April 2004.


Controls Over Employee Verification Programs (A-03-06-15036)                                             2
                                                       Results of Review
We found SSA could establish more effective controls over access to EVS
Telephone/Fax and EVS for Registered Users. In addition, access controls over DHS’
EEVS could be improved. For example, none of these verification programs required
verification of a user’s identity or authorization to use the verification programs on behalf
of his/her employer. Only SSA’s SSNVS had adequate access controls. In addition, we
learned the feedback responses provided to employers were not consistent among the
verification programs for (1) name and SSN matches, (2) death indicator responses,
(3) corrected SSNs, and/or (4) work authorization status. For instance, an employer
could submit the same name and SSN for verification and the data could be verified
under the DHS’ EEVS but fail verification under SSNVS. Finally, we found that both
EVS programs and DHS’ EEVS lack effective controls related to monitoring employers’
usage of the programs and/or blocking unauthorized and inactive users from gaining
access to the verification programs. Due to the vulnerabilities and inconsistencies we
found among the verification programs, SSA’s data could be susceptible to
unauthorized access as well as inadvertent disclosure of personally identifiable
information (PII) to unauthorized users.

ACCESS CONTROLS

Although our review found that SSA had established controls over access to SSNVS,
we found access controls for EVS Telephone/Fax, EVS for Registered Users, and DHS’
EEVS needed to be improved. As illustrated in Table 2, our review found these three
programs granted users access without verifying the users’ identity or authority to use
the verification programs.

                                    Table 2: Access Controls
                                    EVS Telephone/Fax           EVS
             Description                     Teleservice     Registered
             of Controls            ERSC       Center          Users         SSNVS        EEVS
    Verifies user’s identity          No          No              No           Yes         No
    Validates user’s authority to
    use the program on behalf of      No          No              No           Yes         No
    his/her employer


Verification of User’s Identity

As we reported in our September 2006 congressional audit report, 7 the SSNVS program
had a mechanism in place to verify a user’s identity prior to providing them access to
the verification program. SSA authenticates the user’s identity by verifying his or her

7
 SSA Office of the Inspector General (OIG), Congressional Response Report: Monitoring the Use of
Employee Verification Programs (A-03-06-36122), September 2006.


Controls Over Employee Verification Programs (A-03-06-15036)                                       3
name, SSN, and DoB against SSA’s Numident file. However, we found users of EVS
Telephone/Fax, EVS for Registered Users, and EEVS were allowed access to these
programs and SSA data without obtaining and/or verifying their identities. Both EVS for
Registered Users and EEVS did not require users to provide their SSNs or DoBs during
the application process for authentication. 8 Moreover, EVS Telephone/Fax did not
require users to provide any identifying information (i.e. name, SSN, or DoB) prior to
gaining access to SSA data. 9

According to SSA staff, the EVS programs were established many years ago to facilitate
easy and accurate wage reporting for employers. Therefore, a user authentication step
was not built into these older services. As for EEVS, we noted in our prior audit
report, 10 DHS staff would need to work with SSA and/or the IRS to obtain access to
earnings records and Numident information to implement controls to verify a user’s
identity. 11

Validation of User’s Authorization to Represent Employer

We found that as part of the SSNVS application process, SSA verified whether users
had authorization from employers to use the verification program. However, this
procedure or something similar was not performed for the remaining three verification
programs. Under SSNVS, SSA verified the user’s authorization by (1) searching the
Master Earnings File (MEF) 12 to determine whether wages were posted under the
employer’s Employer Identification Number (EIN) 13 and (2) sending a letter to the
employer notifying it that their employee had requested access to SSNVS on their
behalf. To ensure the employer was aware what employee requested access to
SSNVS on their behalf, SSA sent the letter to the employer’s address shown in the
Employer Identification File (EIF) 14 and not the address provided by the user during the
application process. SSA did not require authenticating users’ authorization to use the
two EVS programs because, as stated earlier, these older employer verification

8
 See Appendices C and E for details on the application requirements for EVS for Registered Users and
EEVS.
9
 SSA Teleservice Center Operating Guide (TSCOG), TC 31001.090—Request To Verify SSN or Work
Authorization and Program Operations Manual System (POMS) ER 00301.010—Telephone Calls.
10
  SSA OIG, Congressional Response Report: Monitoring the Use of Employee Verification Program
(A-03-06-36122), September 2006.
11
  It is possible that a statutory change would be required to allow DHS access to earnings records for this
purpose.
12
  The MEF contains all earnings data reported by employers and self-employed individuals. The data is
used to determine eligibility for and the amount of Social Security benefits.
13
  The EIN is a 9-digit number assigned by the Internal Revenue Service (IRS) to sole proprietors,
corporations, partnerships, estates, trusts, and other entities for tax reporting purposes.
14
  The EIF is an IRS file that contains the EIN of a business and the employers name and address
associated with each EIN.


Controls Over Employee Verification Programs (A-03-06-15036)                                             4
programs were established to facilitate easy and accurate wage reporting for
employers. DHS was unable to perform the same level of verification for EEVS
because it did not have access to earnings records such as the MEF or EIF. DHS staff
noted they would need to work with SSA and/or the IRS to obtain access to earnings
records to perform a similar verification. 15

We believe both agencies need to establish procedures to verify whether users have
authorization to use the verification programs to decrease the risk that users may be
accessing the verification programs for non-employment purposes. For example, a user
could misuse EVS for Registered Users to verify the identity of an individual who is not
an employee of the company and avoid paying SSA a fee for a non-program related
verification. 16

VERIFICATION FEEDBACK

Our review determined that feedback responses provided to employers were not always
consistent among the programs for (1) name and SSN matches, (2) death indicator
responses, (3) corrected SSNs, and (4) work authorization status (see Table 3). For
example, an employer could submit the same name and SSN for verification and the
data could be verified under EEVS but fail verification under SSNVS. The inconsistent
response would occur because SSA used an additional name matching routine as part
of the EEVS validation process.

                                    Table 3: Verification Feedback
                                          EVS Telephone/Fax              EVS
             Description of                           Teleservice     Registered
               Feedback                   ERSC          Center          Users         SSNVS       EEVS
     Uses name matching software            N/A            N/A             No            No        Yes
     Provides a death indicator                                 1                                        1
                                            No            Yes              Yes           Yes       Yes
     response
     Verifies information without
                                            N/A            N/A             No            Yes       Yes
     providing corrected SSN
     Verifies work authorization                                2
                                            No            Yes              No            No        Yes
     status
     Note 1: While the program did not specifically note that the Agency’s records showed a death, the
     program will not verify any data related to an individual shown as deceased in the Agency’s records.
     Note 2: While the program did not specifically note that the Agency’s records showed the individual
     was unauthorized to work, the program would not verify any record related to an individual recorded as
     unauthorized to work in the Agency’s records.



15
     Again, a statutory change might be required to allow DHS access to earnings information.
16
   Companies that have a need to verify SSNs for non-employment purposes must obtain valid consent
from the numberholder and pay a fee to SSA. SSA charges these companies $46 for verification of the
first SSN and $20 for each additional SSN. SSA POMS, GN 03311.007—A Standard Fee for Non-
Program SSN Verifications for Third Parties with Consent.


Controls Over Employee Verification Programs (A-03-06-15036)                                                  5
Name Matching Software

We found that the SSA and DHS programs were using different name matching routines
for the electronic verification programs, which could result in inconsistent responses to
employers. DHS’ EEVS used a name matching software package 17 as part of the
validation that was not being used as part of EVS for Registered Users or SSNVS.
When we compared feedback from EEVS and SSNVS, we found instances where
employers could receive inconsistent feedback responses for the same data submitted.
For example, we reviewed a case where an employer used EEVS to verify the name,
SSN, and work authorization of a newly-hired employee and received a positive
verification response. At the end of the year, this employer submitted its entire payroll
for verification to SSNVS, which is encouraged by SSA, and the employee’s name/SSN
failed verification. The employer was perplexed as to why the same data did not verify
under both programs. Based on our review of the two responses, we found that the
employer provided a correct name and the positive verification response provided under
EEVS was valid.

According to SSA staff, the Agency used the commercial software package to increase
the number of positive verification responses provided under EEVS. SSA decided not
to use the software package for EVS and SSNVS because it wanted to have a more
stringent name/SSN verification routine to help ensure accurate wage reporting. SSA
staff were unable to provide any data on the reliability of the name-matching software.
We believe the verification responses should be consistent among the verification
programs to avoid providing employers with false positive or false negative verification
responses.

Death Information

Although we found all four verification programs detected death information during the
verification process, the responses provided to employers differed among the programs.
For SSNVS and EVS for Registered Users, SSA notified employers that the name/SSN
combination had been verified but SSA’s records indicated that the individual was
deceased. EVS Telephone/Fax and EEVS did not disclose whether individuals were
deceased. Under EVS Telephone/Fax, the response provided when a date of death
was present on the numberholder’s record varied depending on which component within
SSA conducted the verification. If staff in the ERSC conducted the verification,
employers were told the name/SSN combination matched SSA records and the date of
death was ignored. 18 However, if staff in the Teleservice Centers conducted the

17
  SSA used name matching tolerances for all three electronic verifications programs (EVS for Registered
Users, SSNVS and EEVS) when the Agency could not match the name and SSN information supplied by
the employer with data in its records. If a match was not found for EEVS, then SSA used the name
matching software to verify the submitted name. The software perform various checks including
(1) removing extraneous characters (e.g. extra spaces, periods, commas, hyphens, apostrophes, other
punctuation); (2) replacing nicknames with proper names (e.g. "BETH" is replaced with "ELIZABETH");
and (3) joining "recognized" prefixes to the main word (e.g. "MC DONALD" becomes "MCDONALD").
18
     SSA POMS, ER 00301.010—Telephone Calls.


Controls Over Employee Verification Programs (A-03-06-15036)                                          6
verification, employers were instructed to ask their employee to contact SSA to verify
their SSN or to correct identifying information on SSA’s records. 19 Under EEVS,
employers were provided a SSA tentative non-confirmation response that stated the
SSN did not match SSA records.

SSA was required by the Intelligence Reform and Terrorism Prevention Act of 2004 to
add death indicators to the SSN verification systems used by employers. 20 To ensure
the Agency has fully complied with this law, SSA needs to make every effort to provide
employers using the EVS Telephone/Fax service with a death indicator consistent with
the other verification programs. Failure to do so could cause unintended
consequences, such as an employer relying on SSA’s positive verification response for
an individual who is actually deceased and unknowingly hiring someone who may have
misused a deceased person’s identity.

Corrected SSNs

Our review found EVS for Registered Users was the only electronic verification program
that disclosed the corrected SSN to employers if the submitted SSN was incorrect. This
correction process, called Single Select, was designed to resolve situations when the
SSN did not verify because of transcription or keying errors where one digit was
transposed with another or one number was simply incorrect. 21 In a September 2003
report, SSA’s Enumeration Response Team stated that the value of Single Select was
that it increased the verification rate of EVS for Registered Users by about 2 percent. 22

In the same report, the Enumeration Response Team acknowledged that SSA’s policy
to use Single Select was inconsistent among its verification programs for employers.
When SSNVS and EEVS were implemented, SSA decided not to use Single Select
because of the Agency’s apprehension to disclose SSNs to the public. The disclosure
of corrected SSN should be significantly reduced in FY 2008 since SSA will no longer
accept verification requests submitted by magnetic media for EVS for Registered Users.
However, at the time of our review, the Agency had no plans to discontinue the
disclosure of corrected SSNs via Single Select for verification requests submitted by
paper to the WBDOC. 23 We believe the Agency should discontinue the disclosure of
corrected SSNs to ensure they are consistent with respect to the type of information
provided to employers through its verification programs.
19
     SSA TSCOG, TC 31001.090—Request To Verify SSN or Work Authorization.
20
     Public Law 108–458 § 7213, 42 U.S.C. § 405 note.
21
  If the SSN verification process does not verify the number as input, Single Select looks at 89 similar
SSNs. It then does a name and DoB search on each of those 89 SSNs and verifies if the data matches.
The DoB is an optional reporting field under EVS for Registered Users.
22
   SSN Verification: Policy Process, and Recommendations, A Report of the SSN Verification Sub-Team
to the Enumeration Response Team, SSA, September 2003.
23
  The WBDOC processes EVS paper verifications requests of 51 or more. In CY 2006, WBDOC
processed about 339,000 verifications that were submitted by paper.


Controls Over Employee Verification Programs (A-03-06-15036)                                               7
Verifying Work Authorization Status

DHS’ EEVS program notified employers about the work authorization status of newly-
hired employees, which is the overall goal of the program. However, we found that
SSA’s verification response varied based upon the service being used by the employer.
For SSNVS and EVS for Registered Users, SSA would verify an individual’s name/SSN
combination even if the individual’s record showed he/she was not eligible to work in the
United States. Moreover, the feedback responses for work eligibility under EVS
Telephone/Fax differed depending on which component conducted the verification. If
the ERSC conducted the verification, then the employer was notified that the name/SSN
combination had been verified and the work status was ignored. 24 However, if the
Teleservice Center conducted the verification, and SSA’s records showed an individual
was not authorized to work, the information was not verified, and the employer was
instructed to have their employee visit a local field office. 25

In our September 2002 report, 26 we recommended SSA modify its EVS program to
detect SSNs for individuals in non-work status, provide appropriate notification to
employers, and issue an alert for necessary action by SSA staff. The Agency decided
not to implement the recommendation because (1) it did not believe the immigration/
citizenship status for non-citizens was reliable and (2) only DHS could determine the
current work authorization status for non-citizens. Prior audit work has confirmed that
SSA’s information can be out-of-date if the SSN owner fails to notify the Agency of a
change in their immigration status. For instance, in our June 2006 audit, 27 we noted
that based on our review of a sample of 275 noncitizens who worked under non-work
SSNs in Tax Year (TY) 2003, it appeared 101 (37 percent) had work authorization.
However, SSA’s records had not been updated to reflect a change in these individuals’
work status.

To update SSA records, non-citizens must visit a local field office to provide evidence of
their current citizenship/work authorization status. In the case of employee verification,
an employer’s inability to obtain positive verification due to out-of-date information may
lead to a small delay in the verification process, but it would lead to a correction of




24
     SSA POMS, ER 00301.010—Telephone Calls.
25
     SSA TSCOG, TC 31001.090—Request to Verify SSN or Work Authorization.
26
  SSA OIG, The Social Security Administration's Employee Verification Service for Registered Employers
(A-03-02-22008), September 2002.
27
     SSA OIG, Employers with the Most Wage Items in the Nonwork Alien File (A-08-05-15138), June 2006.


Controls Over Employee Verification Programs (A-03-06-15036)                                         8
SSA’s records and may eventually benefit the employee at a later date. 28 We still
believe SSA should modify its verification programs to detect SSNs for individuals in
non-work status and then instruct employers to have their employees visit a field office
to update the employee’s record. 29

MONITORING CONTROLS

We found that both EVS programs and DHS’ EEVS lack effective controls related to
monitoring employers’ usage of the programs and/or blocking unauthorized and inactive
users from gaining access to the verification programs (see Table 4). In contrast,
SSNVS had adequate controls in place to detect unauthorized users and anomalies in
their usage of the verification program.

                                     Table 4: Monitoring Controls
                                           EVS Telephone/Fax            EVS
                                                      Teleservice    Registered
          Description of Control           ERSC         Center         Users         SSNVS      EEVS
                                                                                                       1
      Monitor employers usage                No           No              No           Yes        No
                                                  2
      Blocks unauthorized use               Yes           No              No           Yes        No
      Deactivates inactive users            N/A           N/A             No           Yes        No
     Note 1: DHS is developing this capacity.
     Note 2: Although the ERSC cannot block incoming telephone calls, it maintains a list of problem
     employers on a “Do Not Verify” list to restrict further verification.




28
  In March 2004, Congress placed new restrictions on the receipt of SSA benefits by noncitizens who are
not authorized to work in the United States. Under Section 211 of the Social Security Protection Act of
2004, Pub. L. No. 108-203, a non-citizen whose SSN was originally assigned on or after January 1, 2004,
must meet one of the following additional requirements to be entitled to Title II and Medicare benefits
based on the non-citizen’s earnings: (1) the alien worker must have been issued a SSN for work
purposes on or after January 1, 2004 or (2) the alien worker must have been admitted to the United
States as a nonimmigrant visitor for business or as an alien crewman under specified provisions of the
Immigration and Nationality Act.
29
   SSA already discloses on the face of non-work Social Security cards that the SSN is “Not Valid for
Employment.” Any verification feedback relating to this legend would only be reminding employers of
information already released by SSA.


Controls Over Employee Verification Programs (A-03-06-15036)                                               9
Monitoring Usage

The SSNVS process (1) identifies users who improperly search for valid name/SSN
combinations 30 and (2) verifies whether the employee names and SSNs submitted for
verification relate to wages recorded in SSA’s MEF. 31 Furthermore, DHS was in the
process of implementing new monitoring controls for EEVS. The Deputy Director for
U.S. Citizenship and Immigration Service (USCIS), stated in an April 2007 hearing
before the Subcommittee on Immigration, Citizenship, Refugees, Border Security and
International Law of the Committee on the Judiciary, House of Representatives, 110th
Congress, 32 that USCIS was establishing a monitoring and compliance unit to help
detect unauthorized employment, to prevent verification-related discrimination or
employer misuse of the program, and to detect identity and document fraud. The unit
would be responsible for monitoring the employers’ use of the system and conducting
trend analysis to detect potential fraud and discrimination.

Through discussions with SSA staff, we found SSA did not have a system in place to
monitor employers’ usage of the two EVS verification programs to detect anomalies or
inappropriate use of the programs. The Agency was not generating management
information reports to identify employers who may have been improperly verifying
names and SSNs or tracking usage trends among employers.

In addition, we found none of the verification programs were monitoring whether
multiple employers were verifying the same SSN. Moreover, we found that none of the
verification programs could detect the misuse of a valid name/SSN combination (e.g.
identity theft). 33 At a congressional hearing on July 25, 2006, the Associate Director of



30
   SSA was using two types of reports to assist in detecting improper searching for valid names/SSNs
during the data submission process. The Same Name/Different SSN report identified if a single user
attempted to verify more than 50 combinations for the same name but different SSN, whereas the Same
SSN/Different Name report identified a single user who attempted to verify more than 50 combinations for
the same SSN but different name. These reports captured data from both on-line and batch verification
attempts and were produced on a weekly basis.
31
  SSA developed an SSNVS Failed MEF Check report to highlight all PINs, EINs, and SSNs for which
the MEF did not contain wages related to the employees submitted for verification.
32
  Oversight Hearing on Problems in the Current Employment Verification and Worksite Enforcement
System, Prepared testimony of Jonathan R. Scharfen, Deputy Director U.S. Citizenship and Immigration
Service, Department of Homeland Security, April 24, 2007.
33
   At least one employer has cited identity theft and the inability to detect trends in the data as a problem.
In testimony April 24, 2007, before the Subcommittee on Immigration, Citizenship, Refugees, Border
                                                                                                      th
Security and International Law of the Committee of the Judiciary, House of Representatives, 110
Congress, the Senior Vice President of a meat processing firm stated “As currently structured, the Basic
Pilot does not detect duplicate active records in its database. The same Social Security number could be
in use at another employer, and potentially multiple employers, across the country.” In the case of the
employer who was using EEVS, the Government raided six production facilities in December 2006 and
detained 1,282 employees some of who may have been committing some forms of identity theft.


Controls Over Employee Verification Programs (A-03-06-15036)                                                10
USCIS noted that this was problem for the EEVS program. 34 Specifically, she stated
the following:

        The current Basic Pilot is not fraud proof and was not designed to
        detect identity fraud. In fact, a recent analysis of Basic Pilot systems
        data found multiple uses of certain I-94 numbers, A-numbers, and
        SSNs in patterns that could suggest fraud…Findings concerning
        potential fraud (e.g., SSNs being run multiple times in improbable
        patterns, employers not indicating what action they took after receiving
        a final nonconfirmation) will be referred to ICE Worksite Enforcement
        investigators. 35

Blocking Unauthorized or Inactive Users

In our review, we found that three of the four verification programs did not have a
mechanism in place to block unauthorized and/or inactive users from gaining access to
the verification programs. If SSA or DHS had determined that a user inappropriately
used EVS for Registered Users or EEVS, the two agencies did not have a system in
place to deactivate the user’s access to the verifications programs. Additionally, SSA
and DHS did not have a process in place to prevent inactive users from gaining access
to EVS for Registered Users or EEVS. For example, there were 12 users that were
granted access to this program in the 1980s and none of the users submitted
verifications requests within FYs 2002 to 2005. Yet, SSA still considers them as valid
users and anyone could submit verification requests under their PINs. To ensure
appropriate use of its services and data, we believe SSA should consider removing
inactive users from its list of valid users until the Agency has verified their identity and
authorization to use the verification program. 36

Moreover, although our review found both EVS Telephone/Fax and SSNVS 37 had a
process in place that deactivated users’ access to the verification programs for
34
   DHS is taking some additional steps to detect identity theft within EEVS. For example, DHS has piloted
a program to enhance the EEVS system by allowing an employer to view the photo associated with the
holder of a “green card” or Employment Authorization Document. When available, the system displays
the photo that DHS has on file for the given card number, allowing the employer to make a visual match
of identical photos.
35
  Is the Federal Government Doing all it Can to Stem the Tide of Illegal Immigration?, Statement of Janis
Sposato, Associate Director, USCIS, DHS, before the Subcommittee on Regulatory Affairs (now the
Subcommittee on Information Policy, Census, and National Archives) of the Committee on Government
                                                                                                    th
Reform (now the Committee on Oversight and Government Reform) House of Representatives, 109
Congress, July 25, 2006.
36
   In our September 2002 audit, The Social Security Administration’s Employee Verification Service for
Registered Employers (A-03-02-22008), we recommended SSA establish an annual or periodic
reapplication process where EVS registered users are reauthorized to use the service.
37
   In our September 2006 Congressional Response Report: Monitoring the Use of Employee Verification
Programs (A-03-06-36122), we noted how SSA staff had detected and deactivated an employer from
SSNVS for potential misuse. In our further review of this company, we found that while the company
reported 8 Wage and Tax Statements (W-2 Form) during CY 2005, the user submitted approximately


Controls Over Employee Verification Programs (A-03-06-15036)                                           11
inappropriate use, this data was not shared among the verification programs.
Therefore, known program abusers identified under these programs had the ability to
gain access to the other verification programs without the risk of being detected. For
example, the ERSC maintained a log called the “Do Not Verify” list to prevent access by
companies that had misused the EVS Telephone/Fax service. However, ERSC does
not block incoming calls. Instead, SSA staff were expected to review this listing when
they received a call and refuse to verify information for listed employers. Moreover, if a
listed employer called the Teleservice Center later that day to verify information, SSA
staff would have no reason not to provide verification services.




14,000 names/SSNs for verification. We also determined that the user in question was employed by a
company that offered a number of mortgage services on its website, including the processing of IRS
Form 4506, Request for Transcript of Tax Return and SSN verification services. The user also attempted
to verify more names/SSNs using SSA’s telephone service. SSA questioned the user about the number
of verifications and terminated the user’s telephone access. We found that in late 2005 the user obtained
access to EEVS. However, as of August 2006, the user had not submitted any verification requests to
EEVS.


Controls Over Employee Verification Programs (A-03-06-15036)                                           12
                                                   Conclusions and
                                                  Recommendations
We believe that providing employers with tools to verify the names/SSNs of their
employees is crucial for accurate wage reporting. DHS’ EEVS also helps ensure
compliance with immigration laws by providing information on employee’s work
authorization. However, both SSA and DHS need to make certain that adequate
security measures are in place to prevent and detect unauthorized or inappropriate
access to the verification programs and SSA data. Furthermore, the two agencies need
to make sure that feedback responses provided to users of the verification programs are
consistent to avoid skepticism about SSA programs and data and to prevent inadvertent
disclosure of PII to unauthorized users.

RECOMMENDATIONS

To address the findings in this report, we recommend SSA:

   1. Consider combining the EVS telephone/fax and EVS for Registered Users under
      SSNVS to ensure access and monitoring controls are in place to protect the
      program, safeguard data, prevent unauthorized access, and provide consistent
      information to employers.

   2. Ensure feedback responses provided to employers for the four verification
      programs are consistent as it relates to (a) name/SSN matches and (b) death
      indicator responses.

If the Agency determines that is not feasible to combine its employee verifications under
the SSNVS umbrella, we have made a series of additional recommendations:

   3. Implement procedures to verify identity and authority for individuals to use EVS
      Telephone/Fax and EVS for Registered Users to ensure proper disclosure of
      verification data.

   4. Discontinue the disclosure of corrected SSNs via the paper process under EVS
      for Registered Users.

   5. Consider modifying all SSA verification programs to detect SSNs for individuals
      in non-work status, provide employers with notification, and instruct employers to
      have their employees visit a field office to update the employee’s record.

   6. Establish monitoring controls for EVS Telephone/Fax and EVS for Registered
      Users that is consistent with SSNVS to detect potential misuse of the verification
      programs.



Controls Over Employee Verification Programs (A-03-06-15036)                             13
   7. Develop procedures to block unauthorized users from gaining access to SSA’s
      verifications programs. Ensure that unauthorized user information is shared
      among the verification programs to prevent further access to SSA data.

   8. Establish a protocol to remove inactive users from the list of valid users for EVS
      for Registered Users until their identity and authorization to use the verification
      program has been verified and updated.

AGENCY COMMENTS
SSA agreed with all but one of our recommendations. In response to Recommendation
5, SSA stated that it believed that work authorization was DHS’ responsibility and
should be handled through DHS’ EEVS process. Further, the Agency stated that
although current disclosure policy would allow work authorization information to be
provided to employers based on their wage reporting responsibilities, this information
may not be current in SSA’s Numident records. See Appendix F for the full text of
SSA’s comments.

OIG RESPONSE
In terms of Recommendation 5, we believe SSA should reconsider this recommendation
because the Agency has a significant role in the workplace by (1) issuing Social
Security cards with work authorization designations to assist employers when they hire
new employees and (2) assisting DHS with EEVS to verify the identity and work
authorization of new employees.

Since SSA’s employee verification programs are more comprehensive than EEVS in
that SSA verifies the identity of new and existing employees (i.e. SSNVS), we believe
SSA is in a good position to assist with work authorization as well. Even if SSA’s
Numident records are out of date, two positive outcomes are possible if SSA verifies an
employee’s work authorization: (1) unauthorized workers are identified or (2) the
employee’s information is updated in SSA’s records.

Currently, non-citizens with outdated information in SSA’s systems are most likely
unaware that their information is being reported to DHS as part of SSA’s legal
requirement to share such data with DHS for worksite enforcement. Moreover, these
non-citizens will not be eligible for SSA benefits until their work authorization information
has been corrected.

In terms of workloads, even if work authorization notifications to employers lead to
additional workloads in the short-term, we believe this data-sharing will (1) improve the
accuracy and integrity of SSA records and (2) reduce the number of nonwork SSNs
shared with DHS in subsequent years, allowing DHS to better focus its resources. In




Controls Over Employee Verification Programs (A-03-06-15036)                              14
addition, the earlier notifications could lessen field office workloads by reducing the
number of “SSA tentative non-confirmations” under EEVS and eliminating the need for
staff to verify the existence of a work-authorized SSN for non-citizens applying for SSA
benefits.




Controls Over Employee Verification Programs (A-03-06-15036)                           15
                                           Appendices




Controls Over Employee Verification Programs (A-03-06-15036)
                                                               Appendix A

Acronyms
 BSO           Business Service Online
 CY            Calendar Year
 DHS           Department of Homeland Security
 DoB           Date of Birth
 EEVS          Employment Eligibility Verification System
 EIF           Employer Identification File
 EIN           Employer Identification Number
 ERSC          Employer Reporting Service Center
 EVS           Employee Verification Service
 FO            Field Office
 FY            Fiscal Year
 IRS           Internal Revenue Service
 MEF           Master Earnings File
 OIG           Office of the Inspector General
 PII           Personally Identifiable Information
 PIN           Personal Identification Number
 POMS          Program Operations Manual System
 SSA           Social Security Administration
 SSN           Social Security Number
 SSNVS         Social Security Number Verification Service
 TY            Tax Year
 TSCOG         Teleservice Center Operating Guide
 USCIS         U.S. Citizenship and Immigration Service
 WBDOC         Wilkes-Barre Data Operations Center
 Forms
 Form I-9      Employment Eligibility Verification Form
 Form I-94     Arrival/Departure Record
 Form SS-5     Application for a Social Security Number
 Form W-2      Wage and Tax Statement
 “A” Number    Alien Registration Number
 I-94 Number   Arrival/Departure Number



Controls Over Employee Verification Programs (A-03-06-15036)
                                                                        Appendix B

Scope and Methodology
To accomplish our objective, we:

•     Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
      and procedures as well as other relevant Federal laws and regulations.

•     Reviewed Office of the Inspector General, Government Accountability Office, and
      Department of Homeland Security (DHS) reports, and other relevant documents.

•     Established accounts with the Social Security Number Verification Service (SSNVS)
      and DHS’ Employment Eligibility Verification System (EEVS), 1 formerly known as the
      Basic Pilot.

•     For SSA’s Employee Verification Service (EVS) and SSNVS, we:
       Obtained a current list of registered users;
       Obtained user feedback data;
       Obtained sample submission data;
       Identified the number of registered employers using the service as of Calendar
         Years (CY) 2006; and
       Identified the number of verifications submitted in CYs 2003 to 2006.

•     For DHS’ EEVS, we:
       Obtained a current list of registered users;
       Obtained user feedback data;
       Obtained sample submission data;
       Identified the number of registered employers using the service as of Fiscal
         Years (FY) 2006; and
       Identified the number of verifications submitted in FYs 2003 to 2006.

•     Discussed the following with SSA and DHS staff:
       controls in place under EVS, SSNVS and EEVS to ensure appropriate access to
         the verification programs;
       controls in place under EVS, SSNVS and EEVS to ensure the appropriate
         feedback responses to users; and
       controls in place under EVS, SSNVS, and EEVS to ensure users are not
         misusing programs.

Our review of internal controls was limited to obtaining an understanding of the
verification programs. We determined that the list of registered users, feedback data,

1
    EEVS is also referred to as E-Verify.


Controls Over Employee Verification Programs (A-03-06-15036)                               B-1
and submission data for the verification programs were generally reliable. The entities
audited were the Office of Earnings, Enumeration and Administrative Systems under the
Deputy Commissioner for Systems, the Office of Central Operations under the Deputy
Commissioner for Operations, and the Employer Wage Reporting and Relations Staff
under the Deputy Commissioner of Budget, Finance and Management. We conducted
the audit between November 2005 and April 2007 in Philadelphia, Pennsylvania. We
conducted our audit in accordance with generally accepted government auditing
standards.




Controls Over Employee Verification Programs (A-03-06-15036)                       B-2
                                                                                  Appendix C

Employee Verification Service
Social Security Number (SSN) verification is essential to ensuring that wage reports are
properly matched to the right SSN. Since the 1980s, the Social Security Administration
(SSA) has worked to offer the employer community various methods to verify their
employees’ SSNs. One of the methods is the Employee Verification Service (EVS).
EVS offers several submission methods depending upon the number of employees
verified at a time.

EVS Telephone/Fax

Telephone: For up to five SSNs, employers can call SSA’s toll-free numbers to verify
SSNs. Employers can either call 1 of the 37 Teleservice Centers or the Employer
Reporting Service Center (ERSC). 1 Table C-1 below shows the criterion each
component uses to verify SSNs for employers.

         Table C-1: Criteria for Verifying Social Security Numbers by Telephone
                                                                                      Teleservice
                                                                              1
                            Requirements                              ERSC             Centers 2
     Verify user’s identity                                             No                 No
     Verify user’s authorization to use the program                     No                 No
     Verify up to five SSNs (name, date of birth and gender)            Yes                Yes
     Verify the Employer Identification Number (EIN)                    Yes                Yes
                                                    3
     Verify employer is not on "Do Not Verify" list                     Yes                No
     If data agrees, provide positive response                          Yes                Yes
     If data disagrees, request employee visit a local field office     Yes                Yes
     If record shows date of death, special indicator, or non-work
     status, request employee visit a field office                      No                 Yes
    Note 1: SSA Program Operations Manual (POMS), ER 00301.010 —Telephone Calls.
    Note 2: SSA Teleservice Center Operating Guide (TSCOG), TC 31001.090 — Request to Verify SSN
    or Work Authorization.
    Note 3: The “Do Not Verify” list includes names of companies the ERSC determined had misused the
    verification service.

Fax: For up to 50 names and SSNs, employers have the option to fax a paper listing to
a local field office or the ERSC. 2 Both components will indicate on the paper requests

1
 Within SSA, the two components responsible for conducting the verifications by telephone are the
Teleservice Centers and the ERSC. Staff in the Teleservice Centers provide a full range of assistance to
beneficiaries and inquirers by telephone and/or by correspondence regarding all programs administered
by the SSA. Staff in the ERSC assists employers with wage reporting questions or problems. While we
are using the term Teleservice Centers in our review, SSA field offices also are responsible for
verifications and are expected to follow the same policy guidance.
2
    The ERSC only accepts up to five paper verification requests.


Controls Over Employee Verification Programs (A-03-06-15036)                                         C-1
whether submitted data matches SSA records or instruct the employer to have the
employee visit a local field office.

EVS for Registered Users

For more than 50 names and SSNs, employers may use EVS for Registered Users by
completing a registration form and Privacy Act Statement. As part of the registration
process, the employers must submit the company’s EIN, full address, name, and title of
contact person and approximate number of employees’ SSNs the employers wishes to
verify. The employers have the option of submitting their verification requests by paper
or magnetic media (tape, cartridge, compact disk, or diskette). However, SSA plans to
discontinue accepting verifications request submitted by magnetic media as of October
2007 and will only accept paper requests. 3 As shown in Table C-2, for EVS for
Registered users, employers are provided with several verification responses for the
data submitted.

                  Table C-2: EVS Verification Codes Provided to Users
              EVS Code                          Description of Code
               “Blank”     Name and SSN match SSA's records.
                  1        SSN not in file (never issued to anyone).
                  2        Name and date of birth match; gender does not match.
                  3        Name and gender match; date of birth does not match.
                  4        Name matches; date of birth and gender do not match.
                  5        Name does not match; date of birth and gender not checked.
                                                             1
                  6        SSN Not Verified; Other Reason
                  Y        Death indicator
                  *        Input SSN did not verify; SSA located a different SSN.
              Note 1: Starting in August 2007 SSA will provide employers with code 6, if an
              individual’s Numident record includes a fraud indicator.




3
  Starting in October 2007 SSA will no longer process magnetic media (i.e. tapes, cartridges, compact
disk, or diskettes) for SSN verification using EVS for Registered Users. Employers that prefer to submit
requests electronically will be required to use SSNVS. SSA will continue to accept paper requests under
EVS for Registered Users. SSA’s Wilkes Barre Data Operations Center (WBDOC) processes the paper
requests.


Controls Over Employee Verification Programs (A-03-06-15036)                                         C-2
                                                                                   Appendix D

Social Security Number Verification Service
To increase the ease and convenience of verifying employee names and Social
Security Numbers (SSN), the Agency developed the Social Security Number
Verification Programs (SSNVS), a free on-line program. After a 2-year pilot, SSNVS
was expanded to all employers in June 2005. At the end of Calendar Year (CY) 2005,
the Social Security Administration (SSA) reported that SSNVS processed about
25 million verifications for over 12,000 employers. As illustrated in Figure D-1, the use
of the program increased in CY 2006 by almost doubling the total verifications
processed to 49 million.

                           Figure D-1: SSNVS Verifications for CY 2003 to 2006
                                                                        49
                          50
    Verifications in




                          40
                                                                 25
       Millions




                          30

                          20                10
                                  5
                          10

                           0
                                2003        2004             2005      2006
                                                 Calendar Year

To obtain access to SSNVS, employers and third parties must first register on-line at
SSA’s Business Service Online (BSO) website. Following registration, SSA will mail an
activation code, 1 which is a code needed to gain access to SSNVS, directly to the
company’s address shown in the Employer Identification File (EIF). 2 Once the
registered users activate SSNVS using their Personal Identification Number (PIN) 3 and
the activation code, they can start submitting verifications. Registered users can:

    •              Submit up to 10 employee names and SSNs (per screen) via the on-line SSNVS
                   and receive immediate results; and




1
 The activation code is an alphanumeric code sent by SSA to the employer or registered PIN holder (if
self-employed) when access to certain programs is requested. This code must be entered on the
Activate Access to BSO Service web page to enable the user to access the requested service.
2
 The EIF is an Internal Revenue Service file that contains the Employer Identification Number (EIN) of a
business and the employer name and address associated with each EIN.
3
 The PIN is a unique value issued by SSA to the applicant at registration, which must be entered to gain
access to SSNVS.


Controls Over Employee Verification Programs (A-03-06-15036)                                          D-1
    •   Upload files containing up to 250,000 employee names and SSNs and usually
        receive verification results the next Government business day. This bulk
        procedure allows employers to verify an entire payroll database or verify at one
        time the names and SSNs of a large number of newly hired workers.

SSA will return a verification code to the employer for each employee whose information
does not match SSA’s record. In addition to the verification code, SSA provides a death
indicator if the employee’s Numident 4 record includes a date of death. Table D-1
provides descriptions for the SSNVS verification codes.

                 Table D-1: SSNVS Verification Codes Provided to Users
           SSNVS Code                             Description of Code
             “Blank”       Name and SSN match SSA's records.
                1          SSN not in file (never issued to anyone)
                2          Name and date of birth match; gender code does not match
                3          Name and gender code match; date of birth does not match
                4          Name matches; date of birth and gender code do not match
                5          Name does not match; date of birth and gender code not checked
                                                             1
                6          SSN Not Verified; Other Reason
                Y          Death indicator
          Note 1: Starting in August 2007 SSA will provide employers with code 6, if an individual’s
          Numident record includes a fraud indicator.




4
 The Numident is a record of identifying information (such as name, date of birth, date of death, mother’s
maiden name, etc.) provided by the applicant on his or her Application for a Social Security Number
(Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each record is
housed in the Numident Master File in SSN order.


Controls Over Employee Verification Programs (A-03-06-15036)                                           D-2
                                                                                               Appendix E

Employment Eligibility Verification
System
The Employment Eligibility Verification System (EEVS), 1 formerly known as the Basic
Pilot, is an ongoing joint initiative between the Social Security Administration (SSA) and
the Department of Homeland Security (DHS). 2 The purpose of the EEVS is to assist
employers in verifying the employment eligibility of newly hired employees. The
President signed The Basic Pilot Program Extension and Expansion Act of 2003 (Public
Law Number 108-156) into law on December 3, 2003. This law extended the operation
of the EEVS for an additional 5 years (to a total of 11 years) and expanded the
operation to all 50 States not later than December 1, 2004. Although EEVS has only
been expanded for a short period, we found that the number of verifications have
significantly increased during this period (see Figure E-1).

                                    Figure E-1: EEVS Verifications for FY 2003 to 2006
                                                                                   1,743,654
                             2,000,000
                                                                        980,991
                             1,500,000
             Verifications




                                          612,722   756,947
                             1,000,000

                              500,000

                                    0
                                         2003        2004                   2005     2006
                                                              Fiscal Year

The EEVS program uses the information in Government databases (SSA databases
and, if needed, DHS databases) to determine the employment eligibility of new hires.
The Social Security number (SSN) and Alien Registration Number (“A” Number) 3 or I-94




1
    EEVS is also referred to as E-Verify.
2
  Section 401 of The Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(8 U.S.C. § 1324a), Pub. Law No. 104-208.
3
  The “A” number is the 9-digit number following “A” which is shown on the “green card” or Permanent
Resident Card (formerly the I-551 Alien Registration Receipt Card), the Employment Authorization
Document (I-766 and I-688B), and on certain other immigration documents and notices. For newly
admitted immigrants, the “A” number is shown on the machine-readable immigrant visa affixed to the
foreign passport.


Controls Over Employee Verification Programs (A-03-06-15036)                                           E-1
Number (Admission Number) 4 are used for these checks. The employer must complete
the DHS-issued Employment Eligibility Verification Form (Form I-9) for each employee
and then enter elements of this data into the EEVS within 3 days of hiring, including the
employee’s SSN, name, date of birth (DoB), and whether the new-hire indicated he or
she was a U.S. citizen and, if not, the “A” Number or I-94 Number.

The system first checks the information entered against SSA’s database to verify the
name, SSN, and DoB of newly hired employees, regardless of citizenship. When the
Numident shows the U.S. as the place of birth for the newly hired employee or a code
indicating the number holder is a U.S. citizen and the new hire indicated that he/she is a
U.S. citizen, the EEVS automated system confirms employment eligibility. If the EEVS
system cannot confirm employment eligibility based on the information in SSA’s
database or an “A” Number or I-94 Number was entered, the EEVS system checks the
data against DHS’ database.

The employer will receive notification of "SSA tentative non-confirmation" of
employment eligibility when the SSN, name, or DoB does not match the information in
SSA’s database or if a death indicator is present. In addition, employers will receive an
"SSA tentative non-confirmation" if the new-hire indicated he or she was a U.S. citizen
and SSA’s records did not show that the person was a U.S. citizen. The employer will
receive notification of "DHS tentative nonconfirmation" of employment eligibility when
DHS’ database does not show the new-hire as authorized for employment. In these
cases, the employer asks the employee whether he or she wishes to contest the
tentative non-confirmation. If contested, the employee must contact SSA or DHS within
8 Government working days of the notification. After the employee contacts SSA or
DHS to correct the record, the employer resubmits the query through the EEVS system.
If the system does not confirm employment eligibility after the employer resubmits the
query, the employer may terminate the new-hire.




4
 The I-94 Number is the 11-digit number located on the Arrival-Departure Record (Form I-94). The
Form I-94 shows the date the individual arrived in the United States, the “Admitted Until” date, and the
date when his or her authorized period of stay expires.

Controls Over Employee Verification Programs (A-03-06-15036)                                               E-2
                                                               Appendix F

Agency Comments




Controls Over Employee Verification Programs (A-03-06-15036)
                                         SOCIAL SECURITY

MEMORANDUM


Date:       August 22, 2007                                            Refer To:   S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Larry W. Dye      /s/

Subject:    Office of the Inspector General (OIG) Draft Report, "Controls Over Employee Verification
            Programs” (A-03-06-15036)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, on (410) 965-4636.


           Attachment




           Controls Over Employee Verification Programs (A-03-06-15036)                                F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “CONTROLS OVER EMPLOYEE VERIFICATION PROGRAMS”
(A-03-06-15036)

Thank you for the opportunity to review and provide comments on this draft report. Our
comments on the draft recommendations are as follows.

Recommendation 1

Consider combining the Employee Verification Service (EVS) Telephone/Fax and EVS for
Registered Users under Social Security Number Verification Service (SSNVS) to ensure access
and monitoring controls are in place to protect the program, safeguard data, prevent unauthorized
access, and provide consistent information to employers.

Comment

We agree. SSNVS uses the Integrated Registration for Employer Services (IRES) system for
registering employees of businesses who are authorized by their employers to verify names and
Social Security numbers (SSN) for wage reporting purposes. The report found that IRES
contained the appropriate safeguards and security for accessing personal information. The
Agency currently has a parallel automated telephone verification service in development. The
Telephone National 800 # Employer Verification (TNEV) is an Agency approved project that is
scheduled to be implemented in May 2008. TNEV will use IRES to register employees who will
complete the name/SSN verifications. Utilizing IRES will ensure that the same level of security
and authentication exists as in SSNVS.

In conjunction with the development of TNEV, it is currently being evaluated as to whether the
Agency should limit name and SSN verifications to the SSNVS and TNEV processes. This
course of action would no longer provide live agents for telephone verifications of names and
SSNs in either the Office of Earnings Operations (OEO) or the national 800 number. Therefore,
employers requesting to verify more than 10 names and SSNs by TNEV would be directed to
utilize SSNVS via the proper website address. SSNVS has the ability to verify up to 250,000
names and SSNs overnight or up to 10 names and SSNs online. If this process is adopted, TNEV
and SSNVS would offer consistency in the responses provided to the employers and provide a
secure registration process for all users.

If the Agency decides not to move forward with limiting name and SSN verifications to the
SSNVS and TNEV processes, we will reevaluate other avenues to implement this audit
recommendation in the future.

Recommendation 2

Ensure feedback responses provided to employers for the four verification programs are
consistent as it relates to: a) name and SSN matches; and b) death indicator responses.




Controls Over Employee Verification Programs (A-03-06-15036)                                  F-2
Comment

We agree. See our response to recommendation 1. Current disclosure policy allows for the same
data to be shared with employers via any SSN verification process. The routine use established
for the applicable Privacy Act system of records, the SSN Master File (i.e., Numident records),
allows information from that system to be disclosed to employers consistent with their wage
reporting responsibilities. It should be noted that feedback response differences between the
Employment Eligibility Verification System (EEVS) and the various SSN verification processes
were established for different purposes; therefore, it may be appropriate to maintain different
matching protocols. EEVS was designed to verify work eligibility status (determined by
citizenship status) and is driven by Department of Homeland Security (DHS) needs. The other
programs verify only the SSN, name and date of birth match (and also check for death
information) for the purpose of wage reporting; citizenship status is not checked. We do note,
however, that a future release of SSNVS (August 2007) will return successful and unsuccessful
matches to the user. This brings the functionality of EVS and SSNVS in line with each other.

Lastly, the implementation of this recommendation could be affected by the outcomes for several
pending developments concerning the EEVS program, as several States are enacting legislation
requiring employers to use EEVS. It should be noted that although comprehensive immigration
reform legislation did not pass, there are other pending legislative proposals mandating the use of
EEVS. If the legislation is passed, or EEVS is otherwise implemented on a mandatory basis, the
need for other SSN verification programs for employers may diminish, as all employers will be
required to use EEVS for new hires.

Recommendation 3

Implement procedures to verify identity and authority for individuals to use EVS Telephone/Fax
and EVS for Registered Users to ensure proper disclosure of verification data.

Comment

We agree. With the implementation of recommendations 1 and 2, this recommendation will be
unnecessary. However, if recommendations 1 and 2 are not implemented, we will reevaluate
other avenues to implement this audit recommendation in the future.

Recommendation 4

Discontinue the disclosure of corrected SSNs via the paper process under EVS for Registered
Users.

Comment

We agree. With the implementation of recommendations 1 and 2, this recommendation will be
unnecessary. However, if recommendations 1 and 2 are not implemented, we will reevaluate
other avenues to implement this audit recommendation in the future.




Controls Over Employee Verification Programs (A-03-06-15036)                                   F-3
Recommendation 5

Consider modifying all SSA verification programs to detect SSNs for individuals in non-work
status, provide employers with notification, and instruct employers to have their employees visit
a field office to update the employee’s record.

Comment

We disagree. Work authorization is DHSs responsibility and should be handled through the
DHS EEVS process. Even though current disclosure policy would allow this type of information
to be provided to the employer based on their wage reporting responsibilities, SSA’s Numident
work authorization information may no longer be current. A number holder (NH) could have
acquired work authorization status after the non-work SSN card was issued. SSA verifies with
DHS all immigration documents presented in support of the SSN application at the time the
application is taken. The Numident then serves as a “snap shot in time” as it records the
individual’s work authorization status at the time the SSN card was issued. The Numident is not
intended, and does not act, as a repository of work authorization status. Only DHS can
determine current work authorization for a noncitizen. Even though DHS has jurisdiction over
work authorization determinations, we have concerns that prior OIG audits have identified that
DHS was unable to locate the immigration and work authorization status of cases selected for
review. Therefore, the Agency would have to expend resources to work with NHs to correct
information, even though it was accurate when the application for an SSN was completed.
Confusion over this point would require a strong outreach effort to employers to prevent
unintentional dismissal of employees. Such a process may also be very work-intensive, and
require a significant investment of operational resources.

Recommendation 6

Establish monitoring controls for the EVS Telephone/Fax and EVS for Registered Users that is
consistent with the SSNVS to detect potential misuse of the verification programs.

Comment

We agree. With the implementation of recommendations 1 and 2, this recommendation will be
unnecessary. However, if recommendations 1 and 2 are not implemented, we will reevaluate
other avenues to implement this audit recommendation in the future.




Controls Over Employee Verification Programs (A-03-06-15036)                                   F-4
Recommendation 7

Develop procedures to block unauthorized users from gaining access to SSA’s verification
programs. Ensure that unauthorized user information is shared among the verification programs
to prevent further access to SSA data.

Comment

We agree. With the implementation of recommendations 1 and 2, this recommendation will be
unnecessary. However, if recommendations 1 and 2 are not implemented, we will reevaluate
other avenues to implement this audit recommendation in the future.

Recommendation 8

Establish a protocol to remove inactive users from the list of valid users for EVS for Registered
Users until their identity and authorization to use the verification program has been verified and
updated.

Comment

We agree. With the implementation of recommendations 1 and 2, this recommendation will be
unnecessary. However, if recommendations 1 and 2 are not implemented, we will reevaluate
other avenues to implement this audit recommendation in the future.




Controls Over Employee Verification Programs (A-03-06-15036)                                    F-5
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
       Walter E. Bayer, Director, Philadelphia Audit Division, (215) 597-4066

       Cylinda McCloud-Keal, Audit Manager, Philadelphia Audit Office, (215) 597-0572

Acknowledgments
In addition to those named above:

       Virginia Harada, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-06-15036.




Controls Over Employee Verification Programs (A-03-06-15036)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
